<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        THURSDAY, JUNE 29, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:20 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. James Lankford (chairman) 
presiding.
    Present: Senators Lankford, Kennedy, Murphy, and Van 
Hollen.

          UNITED STATES SENATE SERGEANT AT ARMS AND DOORKEEPER

STATEMENT OF HON. FRANK J. LARKIN, SERGEANT AT ARMS
ACCOMPANIED BY:
        JIM MORHARD, DEPUTY SERGEANT AT ARMS AND DOORKEEPER
        MIKE STENGER, CHIEF OF STAFF
        KATRINA SIMS, EXECUTIVE ASSISTANT
        DICK ATTRIDGE, ASSISTANT SERGEANT AT ARMS FOR PROTECTIVE 
            OPERATIONS AND CONTINUITY PROGRAMS
        VICKI SINNETT, CHIEF INFORMATION OFFICER
        BRET SWANSON, OPERATIONS
        DAVE BASS, CAPITOL OPERATIONS
        TERENCE LILEY, GENERAL COUNSEL
        CHRIS DEY, CHIEF FINANCIAL OFFICER

              OPENING STATEMENT OF SENATOR JAMES LANKFORD

    Senator Lankford. Good morning, everyone. The subcommittee 
will come to order.
    This is our third fiscal year 2018 budget hearing for the 
Legislative Branch Appropriations Subcommittee.
    We have with us today the Honorable Frank Larkin, Senate 
Sergeant at Arms, and Chief Matthew Verderosa, Chief of the 
U.S. Capitol Police. Thank you both for being here today.
    Welcome, Chief. This is your first hearing I believe before 
this subcommittee. We will try to make it as painful as we 
possibly can. [Laughter.]
    Senator Lankford. This hearing was originally planned for 
the morning of June 14. That same morning a man decided to open 
fire on Members of Congress while they held a practice for the 
congressional baseball game in Alexandria, Virginia.
    It was because of the quick action by Capitol Police 
Officers, Special Agents Crystal Griner and David Bailey, who 
were on protective detail for House Majority Whip Steve 
Scalise, that the event was not even more tragic. Because of 
their heroism, there were no fatalities, and there could have 
been many lives lost. We are incredibly grateful for their 
courage. We wish them full recovery in their injuries, and we 
are grateful to all those that were involved in their training 
and in their support. It made quite a difference that day.
    We are also thankful that Representative Scalise has been 
upgraded to fair condition and continues to improve. I 
understand that just this past weekend, Matt Mika was 
discharged from the hospital as well and has returned home. Our 
thoughts and prayers are with them both and with all of those 
that were on that field that morning and what they continue to 
process through.
    The entire congressional community was deeply affected by 
the shooting. We realize there could have been any of us 
practicing there that day and any of us targeted in any spot.
    Senate Sergeant at Arms and Capitol Police both have unique 
missions. Now more than ever, they carry significant 
importance. Threats, both internal and external, are ever 
present and emergent in the environment in which we operate. 
Both of your agencies work diligently to protect Members of 
Congress, our staff, and the over 4 million visitors to the 
Capitol campus each year. It is a delicate balance that you 
manage. This is an office space. This is a museum. This is a 
tourist spot all at once. To be able to manage all those 
realities requires its own delicate task.
    We truly appreciate the dedication of the men and women of 
your agencies that enable Congress to do its work, and we do 
thank you for that.
    As I have mentioned at our first two hearings this year, we 
are again faced with a budget environment that will require 
difficult and important discussion on how we move forward in 
the upcoming fiscal year.
    The value gained from your requested increases must be 
weighed against our duty to be fiscally responsible and to be 
able to balance out. We will need to make wise choices with our 
priorities, and so we are looking forward to any input that you 
can give us to help us make those decisions.
    The Senate Sergeant at Arms request for fiscal year 2018 is 
$204.6 million, an increase of approximately $7.2 million above 
the fiscal year 2017 enacted level. The request includes $73.1 
million for salaries and benefits and a request of $131.6 
million for expenses.
    The majority of the requested increase supports 
cybersecurity initiatives to prevent and protect against 
internal and external threats alike. The nature of these 
evolving intrusions have recently received increased attention 
and scrutiny, rightfully so, and it is important that we take 
the necessary steps to prevent the compromise of our Senate 
networks.
    The Capitol Police requests a total of $426.6 million, an 
increase of $33.3 million above the fiscal year 2017 enacted 
level. Of the funding requested, $351 million is for salaries 
and benefits to cover fixed cost increases for pay and benefits 
of the existing staff, an additional 72 sworn officers and 48 
civilians, for a total force of 1,943 sworn officers and 420 
civilians. You can check me on those numbers to make sure I get 
it correctly.
    The request for the expenses account is for $75.2 million, 
an increase of $7 million above the fiscal year 2017 enacted 
level. This increase supports the lifecycle replacement of 
detection and screening equipment, as well as training and 
uniforms for officers.
    Much of your requested increase comes from expanding 
mission requirements, and I look forward to hearing more about 
those needs today, as well as any additional needs that you 
have identified given the recent incident.
    I would like to now turn to Ranking Member Senator Murphy 
for any opening remarks he would like to make.

                STATEMENT OF SENATOR CHRISTOPHER MURPHY

    Senator Murphy. Thank you very much, Chairman Lankford.
    I would like to welcome our witnesses today. I want to join 
Senator Lankford in expressing my gratitude to the Capitol 
Police force for their heroism on the ball field in Alexandria. 
As a member of the Democratic baseball team, this is one of 
these events that represents what is right with Washington 
despite a lot of things that are wrong with this place, which 
makes the attack even more tragic. So let me again send my best 
to Special Agents Crystal Griner and David Bailey and Henry 
Cabrera. We are so thankful for their skilled response to the 
training that you provided them. It is great news to hear that 
Special Agent Griner is now out of the hospital as well. We 
provide our thoughts to Congressman Scalise, to Zack Barth, and 
to Matt Mika.
    On this subcommittee, we are in this really special and 
unique position to make sure that both the Capitol Police and 
the Sergeant at Arms have the resources that they need to help 
keep us safe and to deal with ever-changing threats.
    Chief Verderosa, your budget would continue to ensure that 
we have top notch security on our campus and our grounds, and I 
am ready to work with you to support your efforts. I also look 
forward to discussing how we might provide some targeted 
increases to make adjustments to the array of growing threats.
    Mr. Larkin, from cyber attacks on Federal agencies to 
Russian hacking, cyberspace right now is the modern 
battlefield, and that makes it even more critical that the 
Senate's IT security systems and, frankly, all of the ways in 
which Members interact with technology that our protections are 
robust and resilient given these threats.
    Finally, Mr. Chairman, I just want to note that the 
legislative branch is not exempt from the larger budget debate. 
Our bill funds not only your two security-focused 
organizations, but also other critical agencies to our work, 
including our watchdog, GAO. Just like we need parity and 
common sense to balance the needs of the legislative branch 
appropriations bill, we also need parity and common sense in 
the budget deal for fiscal year 2018. So that includes fully 
supporting your agencies but also making sure that other 
priorities that are vital to our work are protected in our 
bill.
    This is a really important hearing to have. We look forward 
to talking to you in open session and then being able to have a 
private conversation as well. We look forward to your 
testimony.
    Senator Lankford. I do want to remind any Members that come 
in, as well as our guests that are here, that we will move to a 
closed session immediately following the open portion of this 
hearing. All relevant security issues will be dealt with in 
that closed session. And I would also like to request of those 
giving testimony today that we will reserve some of the more 
sensitive security items for that closed session, and we can 
have a frank discussion at that time.
    Mr. Larkin, we will be honored to be able to receive your 
testimony at this time.

               SUMMARY STATEMENT OF HON. FRANK J. LARKIN

    Mr. Larkin. Mr. Chairman, Senator Murphy, thank you. It is 
always a pleasure to appear before this subcommittee and offer 
some thoughts.
    I would request that the subcommittee accept my formal 
testimony for the record that captures the breadth and depth of 
the challenges and the tasks accomplished by the Sergeant at 
Arms in the past year with measures of performance and 
operational impact that we have been able to achieve.
    Senator Lankford. Without objection. We are glad to be able 
to receive both of your written statements as well for the 
record.
    Mr. Larkin. Mr. Chairman, as you mentioned, the budget 
request is for a modest increase of 3.7 percent. A portion of 
that is due to the cost of living adjustment for salaries, and 
we increased funding for cyber defense. We can address that in 
more detail shortly.
    The SAA, or the Sergeant at Arms, is a very large, diverse 
organization, multifaceted, backstops all parts of the Senate 
institution and with a larger regard to the legislative branch 
as a whole. Our goal is to ensure a safe and secure 
environment, free of distractions, for Members and staff to do 
the Nation's business.
    I am able to accomplish that by the talented leadership 
that I have behind me right now: Jim Morhard, my deputy; Mike 
Stenger, my Chief of Staff; Katrina Sims, my Executive 
Assistant; and fortified by my Assistant Sergeant at Arms, Dick 
Attridge for protective operations and continuity programs; 
Vicki Sinnett, our CIO; Bret Swanson, who does all our central 
ops here; Dave Bass, Capitol Ops; Terence Liley, my General 
Counsel who keeps me out of the drink more times than not; and 
Chris Dey, the chief financial officer.
    The Sergeant at Arms is responsible for the safety and 
security of the Senate, as you pointed out. Emergency 
preparedness and continuity operations, information technology, 
and telecommunications support, access control, transportation 
and parking, printing and graphics, mail security, postal 
handling and delivery, facilities maintenance, chamber 
operations, State office support and readiness, furniture 
construction, repair and furnishing of offices, human 
resources, employee assistance, contracting and finance 
support, training and education, TV recording studio, media 
galleries, Senate pages and intern programs, photo studio, and 
finally hair care. Again, it is a diverse organization, with 
much responsibility, and many working components.
    The silent team of highly competent professionals behind 
me, and beyond this hearing, work behind the scenes every day 
for this institution. I have folks on the job from 1 week to 
over 40 years, quite a legacy of service within our 
organization for the Senate. They are innovative. They are 
constantly learning, forward leaning. They are responsive and 
very much customer focused. We are the problem solvers for the 
Senate.
    We work in close partnership with the Secretary of the 
Senate, Julie Adams, and her deputy, Mary Jones. Our two 
organizations have committed themselves to a non-partisan 
support of the Senate, and our organizations are seamless in 
the way we support the institution to minimize the distractions 
on Members and staff so legislative business of the Nation can 
be done.
    We also work closely with our legislative branch partners, 
the House Sergeant at Arms, Paul Irving; the Chief 
Administrative Officer, Phil Kiko, specifically as we join 
forces with our IT initiatives and cyber defense; the Architect 
of the Capitol, Stephen Ayers, a very important partner; and to 
my left Chief Verderosa, supported by his assistant, Steve 
Sund.
    The Chief leads an exemplary force of men and women 
dedicated to protecting the legislative branch as evident on a 
daily basis as we move about this campus and certainly 
highlighted 2 weeks ago by the heroic acts of bravery by two 
USCP officers on the Alexandria ball field.
    The two priority areas for me are physical security and 
safety of the Senate and legislative branch followed by 
cybersecurity. The threat of a cybersecurity intrusion is 
persistent and it requires our constant attention. I will 
address that in more depth in the closed session.
    We are in a dynamic threat environment. The shooting 2 
weeks ago perpetrated by a lone assailant highlights the 
potential for threats off campus and in Member home districts. 
Active shooter threats to the campus are the main concern for 
Chief Verderosa and me. Persistent cyber attacks and our 
persistent efforts to protect data and privacy are very high on 
our radar. Asymmetric threats that, as we have seen, have 
converted common use items into weapons of destruction using 
vehicles and other things to create mass harm and confusion, as 
well as, complex attacks on vulnerable public gatherings and 
areas of commerce. We are constantly being challenged now by 
technical evolution as we see with unmanned or remote 
controlled type apparatus. We have the overarching chemical and 
biological threats, of which this institution has in the past 
been subjected to and has caused significant disruption. And 
finally, we cannot take our eye off the insider threat. It is a 
reality of today's environment, we have to pay attention to it.
    We have a proactive, forward-leaning posture to detect, 
deter, and disrupt threats, and that is where we are 
concentrating our efforts. Rapid response and assessment to 
critical incidents, early containment and mitigation are key.
    We achieve that through our active engagements with our law 
enforcement and intelligence community partners. It is key that 
we have strong relationships and that we engage in joint 
training. We validate interoperable communications for crisis 
management; we plan and coordinate participation at events; and 
we use our resources efficiently.
    We always need to question our facts and assumptions when 
we are looking at the complex nature of this campus and our 
ability to protect it and secure it. We are always looking for 
efficiencies, innovative ways to become more effective with our 
resources. And I think the Chief would agree with me, goal line 
defense does not work in this dynamically challenging and 
changing environment. We have to lean forward. We have to be 
proactive.
    Ultimately, it is about guaranteeing legislative branch 
operations and uninterrupted legislative processes.
    That concludes my opening remarks subject to your 
questions.
    [The statement follows:]
               Prepared Statement of Hon. Frank J. Larkin
                              introduction
    Mr. Chairman, Ranking Member Murphy, and Members of the 
subcommittee, thank you for allowing me to testify today. I am pleased 
to report on the progress of the Office of the Senate Sergeant at Arms 
(SAA) and our plans to enhance our service to the Senate.
    For fiscal year 2018, the Sergeant at Arms respectfully requests a 
total budget of $204,663,000. This request represents a modest 3.7 
percent increase from the current enacted budget, but is nearly 
identical to our budget level from fiscal year 2012. Since that time, 
we have realized significant cost savings from the staff buyouts 
completed in fiscal years 2013 and 2016 and from rigorous contract 
management and restructuring, while continuing to provide the critical, 
high-quality services that the Senate community has come to expect from 
us. Our customer satisfaction levels remain high and we remain good 
stewards of the funds entrusted to us.
    Leading the efforts of the office of the Sergeant at Arms is an 
outstanding senior management team, including Jim Morhard, who serves 
as my Deputy; Chief of Staff Mike Stenger; Assistant Sergeants at Arms 
Dick Attridge (Protective Services and Continuity), Vicki Sinnett 
(Chief Information Officer), Bret Swanson (Operations), and David Bass 
(Capitol Operations); General Counsel Terence Liley; and Chief 
Financial Officer Chris Dey. The many goals and accomplishments set 
forth in this testimony would not have been possible without this 
team's leadership and commitment, as well as the dedication of the 
women and men who work for the Senate Sergeant at Arms office.
                   protective services and continuity
Emergency Preparedness
    Our plans and procedures are designed to ensure the life safety of 
Senators, staff, and visitors by equipping them with the necessary 
tools to respond to emergency situations. Our plans are developed to 
ensure the Senate can continue its essential functions following 
emergency events.
    We worked with Senate offices to update 72 Emergency Action Plans 
and developed Emergency Action Plans for each newly-elected Member 
office. We ensured their suites displayed evacuation maps with detailed 
primary and secondary routes and elevator locations for mobility-
impaired individuals, as well as, distributing supply kits, 
annunciators, and escape hoods. New Members and their staff received 
personalized training on emergency preparedness procedures, continuity, 
alert notification, personnel accountability, and equipment use. We 
distributed a new version of the Emergency Preparedness Quick Reference 
Guides to Members to familiarize them with critical information needed 
to respond to threatening situations, protestors, and other emergency 
events. We also assisted 35 Member offices and committees with drafting 
Continuity of Operations (COOP) plans, strengthening the Senate's 
ability to perform its essential functions.
    We conducted a robust training program to ensure the Senate 
community is prepared to respond to a variety of emergency events at 
work and home. More than 3,200 staff members were trained during 201 
classes covering a variety of emergency preparedness topics including 
responding to active shooters, the four protective actions, emergency 
action planning, and ALERTs/Remote Check-in procedures. The 
``Responding to an Active Shooter'' class continues to be one of our 
most popular trainings. The course is taught with the U.S. Capitol 
Police and is vital to understanding what to expect from law 
enforcement throughout such an event.
    The preparedness and protection of Senators, staff, and visitors 
within the Senate Chamber continues to be a primary focus. We worked 
with USCP to conduct a full-scale exercise to validate the Chamber 
Emergency Action Guide. The exercise included over 200 participants, 
many from Member offices. Participants responded to several scenarios, 
including an active shooter event requiring players to shelter in place 
and an air intrusion situation forcing staff to evacuate the building 
rapidly.
    We collaborated with the USCP to conduct annual evacuation, shelter 
in place, and Internal Relocation drills to familiarize staff with 
appropriate life-safety responses to potential emergency events. We 
supported over 25 drills that included the Capitol, Capitol Visitor 
Center (CVC), Senate office buildings, the Senate Page School, Employee 
Child Care Center, and Postal Square. Many of these exercises were ``no 
notice,'' which creates a more realistic response to emergency events. 
This past year, we conducted two new exercises. The first simulated an 
active shooter event in the Capitol and CVC. The second simulated a 
mass casualty event and examined procedures for gathering Member 
accountability information and ways to share it with senior leadership. 
We also conducted a full-scale exercise of the alternate Briefing 
Center at the Thurgood Marshall building.
    To improve our alert messaging capability, we partnered with the 
USCP, House, and the Architect of the Capitol (AOC) to acquire a joint 
emergency mass notification system (JEMNS) at a significant cost 
savings to the Senate. JEMNS will improve and reduce the number of 
alert notification systems needed to transmit critical life safety 
messages throughout the Capitol complex. JEMNS has been installed and 
is undergoing operational testing for rollout later in fiscal year 
2017. Once complete, the system will rapidly send alert notification 
messages to Senators and staff by e-mail, phone call, text message, 
desktop computer pop-up, and smartphone applications.
    Communication between staff responsible for executing plans 
throughout emergencies is critical to ensuring successful outcomes, 
especially when deployed to continuity sites. We are upgrading our 
radio system to a modern version that will allow for multiagency 
interactions on encrypted equipment during exercises and real world 
events. We are also working with executive branch stakeholders to 
acquire new, interoperable secure mobile devices to provide classified 
communication capabilities for officers and emergency response staff.
Contingency Programs
    SAA staff continued to develop and refine contingency plans in 
collaboration with Joint Congressional Continuity Board partners. 
Additionally, to better support the SAA's Continuity of Government 
mission, efforts have been made with partners and within the Senate to 
establish collaborative forums for information sharing. Of note, the 
ASAA Continuity Council was formed to meet and collaborate on 
collective SAA organizational support and services. The group meets on 
a quarterly basis to discuss program improvements and the Senate's 
requirements during continuity events. The Senate Continuity 
Coordination Group was also formed to provide a forum for information 
sharing between the SAA, Secretary of the Senate, USCP, AOC, and Office 
of Attending Physician. Finally, major progress was made toward 
establishing a joint concept of operations focused on continuity goals 
and requirements, and formalizing joint Congressional continuity 
efforts.
    We continued managing a comprehensive Senate exercise program to 
regularly practice and validate plans. We conducted 26 exercises, 
tests, and guided discussions covering all aspects of emergency 
response including mobile assets, Alternate Chamber, Chamber Protective 
Actions, Emergency Operations Center, Briefing Center, communications, 
transportation, continuity staffing, evacuations, Internal Relocation, 
shelter in place, alert notifications, and Continuity of Government. Of 
particular note, the Test, Training, and Exercise Program led the first 
ever no-notice exercise of contingency communications capabilities. 
This functional exercise successfully tested the CIO's ability to 
deploy, set up, and test information technology infrastructure 
associated with mobile vehicle assets.
Security Planning and Police Operations
    SAA staff coordinates security and law enforcement support for the 
Senate community, including Member offices, State offices, committees, 
and other support offices on Capitol Hill.
    We work closely with the USCP to include staffing for the USCP 
Command Center support program during all hours the Senate is in 
session and normal business hours during periods of recess to allow for 
real-time communication between the SAA, USCP, and the Senate community 
during special events, emergency incidents, and routine operations. 
More than 330 incidents and events were monitored through this program 
this year. SAA staff provided coverage during several Joint Sessions of 
Congress, and the Papal visit.
    Our staff also handles the State Office Readiness Program, which 
delivers security and preparedness equipment and services free of 
charge to State offices. We provided security enhancements to 32 Senate 
State offices this year alone.
Intelligence and Protective Services
    The SAA recognizes the value of maintaining collaborative 
partnerships. We work with various Federal, State, and local law 
enforcement, intelligence, and force protection entities to synchronize 
information, identify security risks, monitor threat streams, and 
maintain situational awareness. This ensures appropriate mitigation and 
prevention strategies are deployed to protect the safety and security 
of the Senate domestically and abroad.
    Evolving and rapidly expanding social media use and the 
availability of open source material allows malicious individuals to 
publically relay intentions within minutes. We proactively research and 
analyze such material and engage with community partners and subject 
matter experts to maintain security-related situational awareness and 
identify threat data against Members, their families, staff, and 
associated offices/buildings domestically and abroad.
    We collaborate with the USCP and other law enforcement entities to 
ensure appropriate outreach and coordination on behalf of specifically-
targeted Members and staff. We continuously monitor, evaluate, and 
conduct vulnerability, risk, and threat assessments to determine and 
implement appropriate security measures and protective operations 
coverage. Additionally, our office maintains a regular situational 
awareness outreach campaign for the Senate community regarding 
significant upcoming events or planned activities, on and in close 
proximity to the Capitol complex and State offices, which may adversely 
impact Senate business.
    Furthermore, our office coordinates with the USCP to implement 
several security initiatives, law enforcement outreach efforts, and 
protective services objectives to ensure Members and their staff 
receive the necessary guidance, tools, and support when planning and 
attending public events throughout the country.
    Finally, we partner with the USCP and other agencies to support 
contingency planning; and oversee security operations planning and the 
creation of incident management and response action plans for major 
events. Events included the Presidential Inauguration, annual State of 
the Union address, Senatorial retreats, Republican/Democratic National 
Conventions, various Joint Sessions of Congress, and other high profile 
National Special Security Events.
                         information technology
Cybersecurity and Response
    The Senate is considered a prime target for cybersecurity breaches. 
Over the past 2 years, the Cybersecurity Department has focused on a 
multi-dimensional transformative approach to identify gaps in our 
security posture and implement strategies to be more proactive to the 
advanced cyber threat. This approach has not only focused on the 
technology, but also on educating the user and training of security 
staff, and has done so respecting the taxpayer's dollar.
    From a people perspective, we developed partnerships with the 
Virginia Polytechnic Institute and State University and the commercial 
sector to develop a mobile application and conference series to educate 
the Senate community on where and how they are vulnerable and provided 
various security tips for the average user. These ongoing education 
efforts help continuously educate the user regarding the cyber threat.
    Upon completion of a holistic cybersecurity technology review, our 
new strategy was developed and implemented. The installation of several 
new technologies is 95 percent complete and the Cybersecurity 
Department continues to develop and improve the associated standard 
operating procedures to leverage the investment. The past 2 years have 
seen completion of a large-scale effort to transform how network 
vulnerabilities are identified. This improvement reduced the network 
scan time from 25 hours to 5 hours and allowed for quicker 
identification of vulnerabilities and ability to determine the cyber 
risk. In 2016 alone, 12,868,866 malicious messages were blocked. With 
recent technology improvements, an additional 68,531 messages were 
analyzed for threat activity, blocked, and the affected users were 
notified to prevent a network breach. Similar results have been seen as 
well regarding the Senate Secure Web Gateway. In 2016, 273,576,800 
connections to 54,540 websites were blocked to prevent threats from 
attacking the internal network. These statistics demonstrate the 
agility and dynamic capability of the advanced cyber threat.
    We continue to develop processes to effectively and efficiently 
leverage the newly implemented technologies. One is the detecting and 
alerting of users establishing remote connections to the network from 
foreign countries. While not necessarily an attack, it allows System 
Administrators to confirm the travel and, if not legitimate, implement 
blocking actions to prevent remote network access to the enterprise. 
Another process notifies users when credentials to their various 
accounts have been compromised and potentially sold on the cyber 
underground. While this is not a compromise of the network, it is 
possible that users are using the same password for Senate systems and 
this notification advises the user to change their password to protect 
their information and the network. Process development is continuing in 
parallel with the various technologies to promote an agile cyber 
defense strategy. Additionally, independent assessors confirmed the 
Senate has a higher than average level of security when compared to 
other Federal agencies, and there was no sign of the Senate network 
being breached.
    While the improvements have significantly increased the security 
and reduced the overall risk to the Senate network, this will not 
prevent a breach. As the department improves its capability, the 
security will continue to increase. The Senate will also continue to 
improve its ability to be more proactive and resilient to the advanced 
cyber threat.
Network Operations
    In 2016, the Network Operations Center received and serviced 2,189 
Service Center ``incident'' tickets and processed 2,873 change 
requests, including more than 1,200 LAN drop requests. Of the 451 
survey responses from users, 95 percent received a rating of 
``exceptional'' or ``very satisfied.''
    The multi-year project migrating to broadband Internet service in 
Senate State office locations continues to show benefits. It 
significantly increases the bandwidth at each of the 460-plus 
locations, improving the performance at each site for both intranet and 
Internet services. The increased bandwidth also supports emerging 
technologies such as improved video conferencing capabilities between 
DC and a State office. We have completed the migration of more than 430 
offices, saving the Senate more than $185,000 a month since the 
beginning of the project. Migration for the remainder of the offices 
will be completed by the end of the year.
Network Infrastructure
    A major upgrade was completed to the entire campus-based switch 
network. This upgrade was comprised of more than 51,000 feet of laser-
optimized fiber and 130 new modular switches. The fiber installation 
will support the Senate campus for the next decade. This upgrade took 
more than a year to complete and required staff to work early morning 
hours to limit any disruptions to the Senate user community. As a 
result of the fiber upgrade and the increased connection speeds to 
these switches, we can now support 1 Gigabit connectivity to user 
systems and are working with other groups to coordinate the final step 
of enabling the faster speeds on end user systems within offices. Once 
complete, this upgrade will result in a better user experience across 
the entire Senate campus.
Wireless Networking
    The Senate wireless network is now comprised of more than 1,100 
wireless access points supporting 12 campus buildings and multiple 
State offices. The implementation of a ``guest'' wired network now 
allows constituents to connect to the Internet while visiting the 
campus. Peak usage of the guest network alone supports more than 3,000 
concurrent users on a daily basis. Integration of our wireless network 
and authentication services with the AirWatch application ensures only 
Senate assets can connect to the internal network via the Discovery 
wireless network. The wireless group has worked closely with the 
Cybersecurity Department by installing more than 100 wireless intrusion 
sensors in the Senate office buildings with nearly 300 more to be 
installed over the next year.
Network Engineering
    The migration to a new application load balancing solution was 
completed by replacing the existing hardware and software platforms, 
which provided load balancing and Secure Sockets Layer (SSL) offloading 
services for many Senate applications. The load balancers service more 
than 180 of the Senate's most critical applications, including e-mail 
and Senate.gov web services. These services were migrated with minimal 
disruption through close collaboration and coordination among groups 
from different departments. The new application load balancing solution 
empowers system and application owners with direct access to 
efficiently monitor and manage application data and delivery, serving 
the Senate's business and constituent services.
Senate E-mail Systems
    Senate e-mail systems processed an average of more than 1.4 million 
inbound and outbound e-mails daily. During the past year, we completed 
a technology refresh and upgrade to enhance outbound e-mail processing 
capacity and efficiency.
Data Center Management
    We continue to follow a best practices approach to modernize, 
improve and manage our data centers. Energy efficiency improvements 
include upgrading airflow, reorganization of space, and server rack 
consolidation in the data center in Postal Square. Enhanced monitoring 
of the facility environment, along with alerting, allows us to react to 
environmental issues more quickly and ensure systems availability. A 5-
year data center plan has been initiated to include moving our primary 
data center off Capitol Hill.
TranSAAct
            Our Platform for Doing Business Online
    We continue to add functionality to TranSAAct, our platform for 
doing business online, eliminating paper-based manual processes and 
addressing the requirements of offices and the Committee on Rules and 
Administration. Built on an extensible modern database framework, 
TranSAAct allows indefinite expansion as our customers identify new 
requirements.
    Over the past year, we rebuilt the Floor privileges pages, 
including automating the Floor pass desk processes; automated the 
previously manual process of renewing software subscriptions; added 
constituent services systems financial reports; and rebuilt the ID 
request forms to address customer suggestions and conform to new 
requirements.
    We are improving the functionality of the communications services 
requests and upgrading some of the technologies in TranSAAct. We are 
also pursuing customer requests to add managing SecurID cards into 
TranSAAct and include service recipient profile information to 
facilitate easier submission of future requests. Finally, we are 
working with stakeholders in the development of a new Technology 
Catalog so we can make appropriate changes to TranSAAct based on 
anticipated changes in business processes.
Otis
            A Senate Personnel Management System
    Otis is an encrypted, secure, and replicated web-based personnel 
management system for Member and committee offices to manage 
administrative information about their staff. The system includes 
support for office administrators and staff, including leave, 
timesheet, and payroll paperwork. In the last year, we added additional 
features to expand leave and payroll capabilities, and to track FMLA 
and Student Loan Repayment Program participants. More than 70 offices 
and committees are actively using Otis, and we continue to work with 
the community on enhancements.
Privileged Access Management
            Protecting our most sensitive systems and data
    Responding to an industry-acknowledged need for increased security 
of highly privileged accounts, we designed and implemented a privileged 
access management solution for use by SAA staff with administrative 
access to highly valuable data. Solution design required us to conduct 
extensive interviews of teams and individuals and conduct in-depth 
evaluations of several potential products. Once we selected a product, 
we designed the solution and integrated it with two of our network 
authentication systems (Active Directory and RADIUS) in order to 
provide the enhanced security of two-factor authentication. This 
solution significantly increases the security posture of Senate 
information systems, protecting the most sensitive data by limiting 
exposure of privileged credentials.
Local Administrator Password Solution
            Securing the desktop
    We deployed the Local Administrator Password Solution (LAPS) to 
address the pervasive problem of a common password used for the local 
administrator account across multiple computers. This provides a 
simple, quick and secure way to create a unique and complex local 
administrator password on all computers in an office. System 
Administrators can grant staff temporary local administrative access to 
systems and change local administrator account passwords on demand. 
Passwords are stored securely in the network authentication system 
(Active Directory). By default, the system will change passwords 
automatically every 30 days. This interval is configurable by the 
System Administrator. The implementation of LAPS empowers offices to 
significantly enhance the security of their computers at no additional 
cost to the Senate.
VMI--Upgrade and Storage Refresh
            More powerful and capable virtual servers
    We significantly upgraded the Senate's Virtual Machine 
Infrastructure (VMI), which hosts more than 1,000 virtual servers 
supporting nearly every application in the Senate. The upgraded 
software added new capabilities, additional redundancy, and enhanced 
disaster recovery capabilities. The cross-organizational team within 
the CIO worked diligently to ensure there was no disruption to services 
during the upgrade process. Additionally, we refreshed the storage 
environment supporting the VMI, moving to a more powerful solution 
provided by a different vendor. This new solution provides a dramatic 
increase in performance, enabling the CIO to virtualize solutions that 
previously could not be supported. Due to meticulous planning and 
execution, we completed the migration of hundreds of terabytes of data 
from the old storage system to the new system without any disruption to 
the applications and services supported by the VMI.
Operating System Imaging
            Faster deployment of new computers
    We moved to a new method for creating and deploying images to 
desktops, laptops, and tablet computers. It enables us to more quickly 
resolve problems and speed the delivery of new machines to our 
customers. In addition, we are now able to perform updates to the 
images, installing the latest security and functionality upgrades from 
Microsoft. As a result, updates are done once and do not need to be 
installed on each new machine that is deployed, a time savings of 
approximately 45 minutes per computer. More than 3,000 computers have 
been deployed using this new capability, resulting in over 1,000 
person-hours saved, and faster time to delivery for customers receiving 
new computers.
Upgrading Existing Mobility Technologies and Support
    In 2016, the Samsung Galaxy Android series and the iPhone 7 and 7 
Plus were added to the mobile communications offerings, providing 
additional options to the existing iOS and BlackBerry smartphone 
models. The transition from BlackBerry devices to iOS and Android 
platforms was hastened by the inability to obtain BlackBerry 10 stock 
from our wireless vendors. The increased demand for higher priced iOS 
and Android devices necessitated a better support infrastructure. In 
2017, we developed a new support program to have warranty stock onsite 
so that users no longer have to visit a retail store to troubleshoot or 
exchange faulty devices. This program achieves cost savings to the 
Senate overall by eliminating the mandatory requirement for AppleCare+ 
on all smartphones, but does require an increase to the Mobile 
Communications Services (MCS) budget to stock full retail value devices 
to be used as warranty stock.
    In 2017, we will evaluate the BlackBerry Mercury as a possible 
addition to mobile communications offerings. Testing of new smartphones 
is an ongoing process.
Telecommunications
    The much anticipated, multi-year effort to upgrade and modernize 
the State office telephony infrastructure for all 460-plus State 
offices is underway. It will provide each State office with new 
hardware, increased flexibility, a feature-rich voicemail platform, 
more features, and additional security at a lower cost.
    This project includes limited travel to some State offices during 
migration to ensure a seamless transition of services. Anticipated 
benefits will begin in fiscal year 2017 and increase throughout the 
life of the migration process.
    The final stages of the Telephone Modernization Project are well 
underway with the implementation of Session Initiation Protocol trunk 
lines. This change will remove our dependency on Verizon for trunking 
and generate cost savings over the next several years. The upgrade of 
several servers integral to the DC telephone switch will allow us to 
remain up to date and prepared for future technologies.
    While our DC voicemail platform was previously upgraded to allow 
for additional features and redundancy, we are now working on expanding 
capacity due to the increase in voicemail traffic. Splitting our 
voicemail platform into two separate clusters will allow for maximum 
capacity on each cluster and still maintain the features, 
functionality, and flexibility that offices expect.
IT Help Desk and Installations
    Our central IT Help Desk answers approximately 10,000 questions 
from Senate users annually, taking trouble reports and coordinating the 
activities of the technicians who respond to and resolve the problems 
by phone, online, and in person. In addition, the installation team 
completed more than 5,000 installation projects over the past 12 months 
with the percentage of on-time arrivals averaging 99.5 percent. In 
addition, 48 percent of Help Desk calls were resolved during the 
initial call. Each time a Help Desk or installation ticket is closed, 
the customer is offered an online survey, and 98 percent of those 
surveys rated the IT Help Desk and installation services as either very 
satisfactory or excellent.
Constituent Services Systems
    New Constituent Services Systems (CSS) contracts were issued in 
2016. The new contracts include numerous updates identified by Senate 
and CIO staff over the course of the previous contract and include 
several new security-related requirements. CSS contracts were issued to 
four vendors and extend through the end of 2021, thereby providing 
Member offices with several CSS service provider options.
                               operations
Central Operations
            ID Office
    The ID Office has successfully simplified the badge issuing process 
by consolidating two card management systems prior to the beginning of 
the 115th Congress and issuing approximately 9,000 Congressional IDs 
during a 2-month initial renewal period.
    Focus continues on the increased use of secure Smart Cards, which 
several hundred customers currently utilize. The Senate Smart Card 
program hopes to support various capabilities outlined in Homeland 
Security Presidential Directive (HSPD) 12, such as e-mail encryption, 
two-factor authentication, and secure remote network access.
            Parking Operations
    Parking Operations continues to mitigate impacts of special events 
and construction projects on space availability. Long-term construction 
projects, such as the Russell building's exterior envelope 
rehabilitation, will inconvenience different groups of permit holders 
over the course of 4 years. Shorter targeted projects--such as 
repaving, refreshing paint, and replacing curbs and gutters--continue 
to have smaller impacts on outdoor permit holders. The planned 
renovations of the Russell Legislative Garage and the Thurgood Marshall 
Judiciary Office Building Garage will be of significant impact in the 
coming years.
    Work on the Judiciary Office Building Garage is underway, and work 
continues with the Administrative Office of U.S. Courts to ensure 
proper focus on our customers' parking needs. The AOC has designed the 
work in phases to limit the disruption to permit holders. It is 
anticipated that all current permit holders will be accommodated in the 
garage throughout the project.
    The Russell Legislative Garage renovation will displace the parking 
permit issuance booth and over 100 spaces that are under the control of 
the Committee on Rules and Administration. Parking Operations will work 
closely with the committee's staff and AOC personnel to ensure customer 
service can be maintained and displaced garage permit holders are 
accommodated in other Senate areas. The permit issuance booth issues 
more than 9,000 permanent permits each Congress, and maintaining a 
location to provide this service is extremely important. Ensuring all 
stakeholders are aware of the plans for the renovation will be a 
primary focus of Parking Operations.
            Transportation and Fleet Operations
    Transportation and Fleet Operations procures, manages, and 
maintains Senate vehicles; operates the Senate Daily Shuttle services; 
and provides the Senate with emergency transportation and logistics 
support. The fleet includes trucks, vans, buses, SUVs, electric 
vehicles, handicapped-accessible vehicles, and Segways. Focus continues 
on reducing older vehicle inventory with newer, more efficient 
vehicles, when necessary, to better meet the needs of our customers. In 
fiscal year 2016, staff transported more than 23,000 passengers through 
the SAA Shuttle service.
            Photography Studio
    The Photo Studio provides photography and photo imaging services 
for Senate offices and committees. The studio manages and maintains the 
Photo Browser application, which provides Senate offices a secure 
location to upload, organize, download, and place orders for their 
photos through a Web interface. The Photo Browser provides a secure, 
accessible archive to all photos accumulated during a Senator's term in 
office.
    The Photo Browser system currently contains more than 1.4 million 
photo image files. The new Photo Browser system launched in March 2017. 
Improvements include a more intuitive user interface, user tools that 
allow cropping and selection of templates, and opportunities for 
developing new features in the future.
    In fiscal year 2016, staff photographed more than 68,000 images, 
produced more than 61,000 photo prints, and coordinated scanning for 
end of term archiving of more than 56,000 photo images for Senators 
leaving office.
Printing, Graphics and Direct Mail
    The Printing, Graphics and Direct Mail (PGDM) department provides 
support to the Senate community through graphic design, printing, 
photocopying, mailing, document preservation, logistics, and security--
producing more than 60.3 million items during fiscal year 2016.
    As a good steward of fiscal resources, PGDM garnered notable 
savings for the Senate, including:
  --In fiscal year 2016, PGDM reduced more than $100,000 in equipment 
        maintenance costs by re-negotiating vendor support contracts.
  --More than $1 million was saved by locally producing charts for 
        Senate floor proceedings and committee hearings.
  --More than $960,000 saved in postage by pre-sorting and discounting 
        4.3 million pieces of outgoing Senate franked mail, even as 
        costs continue to fluctuate within the postal industry.
    PGDM produced 5.3 million digital images using high-speed digital 
scanners and software technology for imaging Members' mail, as well as 
using a document file management system. This provided Member offices 
the ability to conduct comprehensive electronic searches for specific 
dates, legislative issues, or individual constituent correspondence 
within their document collection.
    PGDM has continued work with the Senate community to convert 6,148 
obsolete media (VHS/Beta/cassette) to usable digital files, which 
amounts to over 4 terabytes of data. This service allows offices the 
ability to convert legacy tapes to current media formats, in compliance 
with National Archives standards.
    Digital publications and multimedia are becoming an increasingly 
important complement to printing. The future of publishing is a world 
in which both print and digital live together. In fiscal year 2016, 
PGDM added new offerings called'' Digital Media.'' Some examples of 
these jobs include fillable PDF forms, Web graphics, E-Pubs, video 
creation, animation, interactive PDFs, and animated slide shows.
    Through effective communication and teamwork, PGDM's Senate Support 
Facility upheld the SAA mission for operational security in fiscal year 
2016 by receiving 5,047,809 items from the USCP off-site inspection 
facility and transferring them to the Senate Support Facility. This 
process eliminated 436 truck deliveries to the Capitol complex, helping 
to reduce traffic and allow the USCP to focus on other aspects of 
safety.
    Focus continues on identifying means of cost savings while not 
compromising service and customer satisfaction. PGDM combines job 
responsibilities throughout its department and engages in formal cross-
training initiatives among employees to ensure a high level of service 
quality. In addition, PGDM plans to upgrade the current online work 
order system to provide Senate offices the ability to request 
additional products.
Senate Post Office
    The Senate Post Office's workforce tests and delivers mail and 
packages to more than 180 locations within the Capitol complex while 
providing a messenger service to multiple locations within the 
Washington metropolitan area.
    In fiscal year 2016, the Senate Post Office safely processed and 
delivered 7.9 million internal and incoming mail items. The Government 
Accountability Office reimbursed the Sergeant at Arms $14,000 for 
screening their incoming U.S. Postal Service mail.
    Following a successful bipartisan pilot program of the Sentry Air 
System, a new mail-screening unit for Senate State offices, the Senate 
Post Office purchased 30 additional units. Deployment of the new units 
will commence as older units are identified for replacement.
Capitol Facilities
    Capitol Facilities supports the work of the Senate by providing a 
clean and professional environment in the Capitol Building for 
Senators, staff, and visitors. Our Environmental Services Division 
cleans Capitol offices, hallways, and restrooms; moves furniture for 
offices; and provides special event setups for 15 meeting rooms in the 
Capitol and the Senate Expansion space in the Capitol Visitor Center. 
The Furnishings Division provides furnishings--including stock and 
custom furniture--carpeting, and window treatments to Capitol offices. 
It also provides framing services for Senate offices and committees.
    Focus continues on realizing cost savings and improved efficiency 
while not sacrificing service. Capitol Facilities has combined job 
specialties and engaged in cross-training employees to ensure services 
are maintained at the highest level. Current initiatives include an 
upgrade to the Capitol Facilities Online Request System (CapFOR), our 
online tool that offices can use to request furniture, services, and 
framing. It also includes an online work order system to track the 
workload and software that enables us to provide furnishing floorplans 
to Senators for use in their Capitol offices.
Office Support Services
    The State Office Liaison staff serve as the conduit between Senate 
offices and commercial landlords, or the General Services 
Administration for Senate offices in Federal facilities, overseeing 450 
State offices. Managing this important program helps assure every 
Senator's ability to meet the growing needs of their local 
constituencies.
                           capitol operations
    Ensuring that our customers--both internal and external--have 
access to the Senate and understand its work remains the focus of the 
SAA's Capitol Operations team. Over the past year, team members 
provided a range of services to Senators and their staffs, visitors to 
the Capitol, members of the news media who cover Congress, and the 
public. Capitol Operations continues to focus on providing timely, 
accurate, and useful information that promotes safety, increases 
transparency, and enhances the experience of those who work in and 
visit the Senate.
Senate Recording Studio
    In a time of instant communication and demands for transparency, 
the Senate Recording Studio helps ensure that the work of the Senate 
remains accessible to the public. During 2016, the Recording Studio 
provided 781 hours of gavel-to-gavel coverage of Senate Floor 
proceedings and continues to provide technical support for live-
streaming and archiving of the proceedings on the Senate's website, 
www.senate.gov. Last year, the streamed proceedings were viewed 2.15 
million times by more than 172,900 unique visitors. To keep the quality 
of this production in line with current standards, the studio is 
upgrading the Senate Floor audio system in 2017. The Recording Studio 
also broadcast 544 Senate committee hearings in 2016. The studio 
coordinates with Voice of America, the Department of State, and other 
agencies to provide these hearings to a larger audience. Another 
priority of the Recording Studio is to enable Senators working in DC to 
communicate with their constituents back home. During 2016, the studio 
produced 805 television productions and 899 radio productions, and 
edited more than 2,000 audio and video clips for Senators. In January 
2017, the studio was responsible for the broadcast of the Presidential 
Inauguration to a record eleven jumbotrons along the Capitol grounds, 
six live streams, and the descriptive audio of the event.
Senate Media Galleries
    For members of the news media, the Senate remains one of the most 
open and accessible institutions of government. On any given day, 
hundreds of reporters, producers, photographers, videographers, and 
technical support personnel can be found in hearing rooms, hallways, 
and in the Chamber, bringing the news of the Senate to people across 
the country and around the world.
    Ensuring that the news media can conduct their business 
efficiently, safely, and in a manner consistent with Senate rules is 
the responsibility of the staff of the four Senate Media Galleries. The 
unique structure of the Media Galleries, dating back to the earliest 
days of the Senate, requires them to work closely and cooperatively 
with their respective Standing and Executive Correspondents' 
Committees, the USCP, and press secretaries and communications staff of 
Senators' offices and Senate committees. Media Gallery staff facilitate 
media credentials and arrangements for the approximately 6,000 members 
of the news media who can cover the Senate in a given year.
            Daily Press Gallery
    The Daily Press Gallery supports reporters working for publications 
that publish on a daily or more frequent basis. Last year, the Daily 
Press Gallery issued credentials to approximately 1,800 journalists. As 
custodians of the largest press complex on Capitol Hill, the gallery 
staff serve more than 100 reporters who physically work in the Press 
Gallery on a regular basis. Gallery staff also help control access to 
the Press Gallery inside the Senate Chamber and ensure gallery rules 
are followed. Daily Press Gallery staff coordinate with Senate 
committees on press coverage for hearings and other events around 
Capitol Hill. The Gallery staff remain focused on modernizing services 
by creating an electronic archival and filing system, streamlining the 
online credentialing process, and maintaining real time website updates 
on Senate Floor proceedings and notifications to Senate staff and 
reporters via e-mail and Twitter (@SenatePress). After successful work 
at the 2016 conventions and 2017 Presidential Inauguration, the gallery 
staff focused on preparations for the Supreme Court nomination 
hearings.
            Periodical Press Gallery
    The Periodical Press Gallery supports the news media working for 
non-daily periodicals and their online publications. Media interest in 
Capitol Hill has increased dramatically over the past year, and the 
Periodical Gallery has seen a 200 percent increase in applications for 
press credentials since October 2016. Gallery staff continue to process 
these new press applications in consultation with the Executive 
Committee of Periodical Correspondents, and will renew press 
credentials for the more than 1,200 correspondents currently 
credentialed. The staff remains focused on streamlining communication 
with gallery members and Senate staff. For example, the number of 
followers on the gallery's Twitter account (@Senate PPG) grew over 33 
percent to 6,350 in 2016. These efforts help drive traffic to the 
gallery's website, where information on Senate Floor proceedings, the 
credentialing process, and other areas of interest is consolidated. 
Gallery staff also continue to assist Senate staff with media logistics 
for many high profile hearings in 2017, including the nomination 
hearings for the next Supreme Court Justice.
            Press Photographers Gallery
    The Press Photographers Gallery supports photographers representing 
news organizations from across the United States and around the world. 
Last year, the gallery credentialed approximately 300 news 
photographers. Unlike the other three Media Galleries, which have 
counterparts in the House of Representatives, Press Photographers 
Gallery staff support the media at news events and hearings in both 
Houses of Congress. During the past year, gallery staff supported press 
logistics at the national political conventions and the Presidential 
Inauguration, ensuring hundreds of press photographers could document 
for the world the process of the peaceful transfer of power in the 
United States. The Senate is a major focus of the press during the 
beginning of a new administration; accordingly, large numbers of 
photographers are covering Congress on a daily basis. The gallery staff 
works constantly with other SAA offices, the U.S. Capitol Police, and 
Senate offices to ensure press photographers' access without 
interfering with the duties of the Members. This year, the gallery 
looks to finalize press logistics for Continuity of Government plans.
            Radio and Television Gallery
    The Radio and Television Gallery serves as the Senate's primary 
contact to the broadcast news industry and ensures that the Senate's 
broadcast coverage rules are followed. Gallery staff function as 
liaisons between Senate offices and the broadcast media and, in 2016, 
assisted in organizing coverage of more than 200 news conferences, 
1,200 committee hearings, 100 photo opportunities, and 25 special 
events. The gallery issued credentials to approximately 3,900 
television and radio reporters, producers, and technical personnel. The 
gallery also maintains the studio and technical infrastructure that 
Senators use for news conferences. Recently, the gallery renovated the 
studio's audio system and added soundproofing. The renovated audio 
system incorporates a separate audio feed for ambient microphones. As a 
result, reporters' questions are clearly heard during news conferences 
by the viewing public.
Senate Doorkeepers
    Senate Doorkeepers play a critical role in supporting the 
legislative process of the Senate. Doorkeepers provide access to those 
with Senate Floor privileges; enforce the rules of the Senate Floor; 
and facilitate the needs of Senators, Senate Floor staff, and Senate 
Pages. Doorkeepers also provide support for a number of special events 
attended by Senators, their families, and special guests. In addition 
to directly supporting Senators, Doorkeepers also ensure that people 
from around the world can visit the Senate Gallery safely. During 2016, 
the Senate Chamber averaged 1,000 visitors per day--both when the 
Senate was in session and during recess--with the help of Senate 
Doorkeepers. Doorkeepers are also tasked with emergency preparedness 
roles and balance the dual priorities of maintaining access and being 
prepared for emergency situations.
Senate Appointment Desks
    The Senate Appointment Desks are responsible for processing 
thousands of guests, who enter the Capitol each year for business 
meetings or other purposes, in a safe and efficient manner. During 
2016, approximately 220,000 visitors were processed through our network 
of Appointment Desks located on the first floor of the Capitol, in the 
basements of the Russell and Hart Senate office buildings, and in the 
Capitol Visitor Center. Of these, 124,000 visitors were in the Capitol 
complex for official business or a direct meeting with a Member, a 
Member's office, or a committee. In addition, more than 25,000 
international visitors relied on the CVC Appointment Desk for Senate 
Gallery Passes and information.
Office of Internal Communications
    The Office of Internal Communications (OIC) streamlines 
communication within the SAA organization and to the rest of the Senate 
community through a combination of online, digital, and traditional 
print publications. Last year, the office sent 498 Notices and 61 Dear 
Colleague messages electronically, saving resources and speeding 
delivery of important information. In addition, the OIC manages two 
websites--one internal to the SAA and the other accessible to the 
Senate community. During the past year, OIC staff edited and helped 
produce 135 publications, including safety bulletins, newsletters for 
both Senate and SAA staff, procedural manuals, and dozens of documents 
sent to various SAA offices and the Senate.
                          saa human resources
    The primary function of the SAA Office of Human Resources is to 
provide personnel services and advice to SAA managers and employees. 
SAA Human Resources also provides workers' compensation, ergonomic 
assessments, Americans with Disabilities Act accommodation requests, 
and recruitment services to the broader Senate community.
Senate Placement Office
    During fiscal year 2016, Senate offices submitted 404 requests for 
recruitment assistance to the Senate Placement Office; 21,052 resumes 
were processed by the Placement Office in response to these requests. 
Overall, in fiscal year 2016, the Senate Placement Office processed 
23,657 resumes from applicants for vacancies in Senate offices and 
committees.
                senate office of education and training
    The Office of Education and Training provides training to ensure 
that all Senate staff have the resources and skills they need to 
perform their jobs. In 2016, nearly 3,000 staff attended our classroom 
classes and nearly 1,200 staff attended online classes. In addition, 
the Office of Education and Training provided customized training, 
facilitation services, and coaching to more than 150 Senate Member, 
committee, and support offices, in which more than 2,000 staff members 
participated. The office also provided three conferences for 137 State 
staff.
    This year, we will expand our leadership development offerings, 
provide training for the Academy Nomination Coordinators, and 
coordinate orientation and training for the Chiefs of Staff and 
Administrative Directors in the new Member offices.
Health Promotion
    Our Health Promotion office has been legislatively mandated to 
provide Health Promotion activities and events for all Senate staff. 
Each year, the office coordinates and hosts the 2-day Health and 
Wellness Fair. In 2015, more than 2000 staff participated in health 
promotion activities, which included screening for glucose, cholesterol 
and blood pressure; exercise demonstration; and seminars on topics 
including healthy eating and cancer prevention. Through a revolving 
fund, we offer the opportunity to participate in Weight Watchers, yoga, 
and Pilates.
                      employee assistance program
    Our Employee Assistance Program (EAP) offers a variety of 
emotional, behavioral, and work-related support resources and services 
to staff, their family members, Senate Pages, and interns. In 2016, 
nearly 1 in 20 Senate employees utilized the services of an EAP 
counselor; 221 employees took an online mental health screening; 47 
managers requested a supervisory consultation; 2,268 employees attended 
an EAP training activity; and 2,206 employees accessed resources for 
personalized information and referrals addressing childcare, parenting, 
adult care, aging, education, legal concerns, and/or financial issues.
                               conclusion
    The Sergeant at Arms is composed of a diverse array of 
organizations. All of them exist to serve the Senate so that it can 
function as part of the Legislative Branch of our government. To 
provide the checks and balances on any administration, the Legislative 
Branch must be able to function efficiently in an effort to create and 
pass legislation. To do so, the Senate Sergeant at Arms must and will 
provide the needed services that allow it to function.

                               APPENDIX A

                    Fiscal Year 2018 Budget Request

          Office of the Sergeant at Arms--United States Senate

                   FINANCIAL PLAN FOR FISCAL YEAR 2018
                         [Dollars in Thousands]
------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                           2017 Enacted    2018 Request
------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries............................         $70,900         $73,090
    Expenses............................          65,058          71,613
                                         -------------------------------
        Total General Operations &              $135,958        $144,703
         Maintenance....................
 
Mandated Allowances & Allotments........          43,657          42,188
Capital Investment......................           9,710          10,590
Nondiscretionary Items..................           8,110           7,182
                                         -------------------------------
        Total...........................        $197,435        $204,663
 
Staffing................................             847             854
------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2018 
budget request of $204,663,000, an increase of $7,228,000, or 3.7 
percent, compared with fiscal year 2017. The salary budget request is 
$73,090,000, an increase of $2,190,000, or 3.1 percent, and the expense 
budget request is $131,573,000, an increase of $5,038,000, or 4.0 
percent. Staffing is expected to be 854 FTEs.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The General Operations and Maintenance Salaries budget request is 
$73,090,000, an increase of $2,190,000, or 3.1 percent, compared with 
fiscal year 2017.
    The General Operations and Maintenance Expenses budget request is 
$71,613,000, an increase of $6,555,000, or 10.1 percent, compared with 
fiscal year 2017. The increase is due to funding for cybersecurity 
initiatives.
    The Mandated Allowances and Allotments expense budget request for 
fiscal year 2018 is $42,188,000. This budget supports State office 
rents at $18,059,000; purchase of computer and office equipment at 
$8,725,000; maintenance and procurement of Member office constituent 
mail services system at $7,150,000; voice and data communications for 
Washington, DC and State offices at $3,302,000; recording studios, 
$2,100,000; State office security enhancements at $1,607,000; wireless 
services and equipment, $1,050,000.
    The Capital Investments expense request for fiscal year 2018 is 
$10,590,000. This budget includes funding for Recording Studio 
equipment upgrades at $2,325,000; Data Network Campus Infrastructure at 
$2,150,000; Storage Area Network at $1,915,000; Enterprise Systems 
Infrastructure $1,290,000; Network Operations Infrastructure, 
$1,210,000; Cybersecurity Infrastructure, $1,000,000 and Network Mgmt 
Equip & Technology Upgrade, $700,000.
    The Nondiscretionary Items expense request for fiscal year 2018 is 
$7,182,000. This budget includes support for the Payroll System at 
$3,689,000, funding to support the Secretary of the Senate for contract 
maintenance of the Financial Management Information System (FMIS) at 
$2,729,000, and maintenance and necessary enhancements to the 
Legislative Information System at $764,000.

    Senator Lankford. Chief Verderosa.
                              ----------                              


                      UNITED STATES CAPITOL POLICE

STATEMENT OF HON. CHIEF MATTHEW R. VERDEROSA
ACCOMPANIED BY:
        STEVE SUND, ASSISTANT CHIEF
        RICHARD BRADDOCK, CHIEF ADMINISTRATIVE OFFICER
        JAY MILLER, CHIEF FINANCIAL OFFICER
        GRETCHEN DEMAR, GENERAL COUNSEL
        FAY ROPELLA, INSPECTOR GENERAL
    Chief Verderosa. Chairman Lankford, Ranking Member Murphy, 
and Members of the subcommittee, I am honored to be here today 
and I appreciate the opportunity to present the United States 
Capitol Police budget request for fiscal year 2018.
    I am joined here today by some members of my executive team 
and executive management team, including Chief of Operations, 
Assistant Chief Steve Sund; Chief Administrative Officer 
Richard Braddock; Chief Financial Officer Jay Miller; General 
Counsel Gretchen DeMar; and Inspector General Fay Ropella. Also 
in attendance today is Officer Gus Papathanasiou, the USCP 
Fraternal Order of Police Labor Chairman, who heads our sworn 
union.
    I would like to thank the subcommittee for its generous and 
unwavering support of the United States Capitol Police and for 
providing the necessary funding and support for our personnel 
and operations.
    As we have seen over the past several months, our officers 
are well prepared and highly trained to deal with any 
circumstances that they may encounter. What at first may appear 
to be routine may, in fact, be a threat to the safety and 
wellbeing of the Capitol complex or Members of Congress. This 
point is exemplified with the incident on June 14 in 
Alexandria, Virginia. The extensive training and quick response 
by Special Agents Crystal Griner and David Bailey saved lives. 
I would like to commend them publicly for their heroic and 
professional response in protecting the Members of Congress and 
Senators and others that day during the practice session for 
the congressional charity baseball game.
    We have often discussed the department's needs to remain 
agile while also continuing to enhance our capabilities, and I 
believe that in the environment in which we operate, it will be 
necessary to provide increased coverage for Member events going 
forward. In doing so, we appreciate the Congress' continued 
support of our mission and its recognition of the need to 
provide additional resources as we identify new and increasing 
threats.
    Accordingly, we have developed our fiscal year 2018 budget 
request of $426.6 million with a focus on continuing to equip, 
train, and prepare our workforce to protect the United States 
Capitol and the Congress to ensure they remain safe and secure. 
Due to the global threat environment and the tactics of 
terrorist organizations targeting attacks at public venues, we 
have worked in close coordination with the Capitol Police Board 
and Chairman Larkin of the board to determine that additional 
screening and various means must be employed to continue to 
keep the Capitol complex safe.
    As a result, our fiscal year 2018 request includes funding 
for an additional 72 sworn officers and 48 civilians for the 
purpose of adding prescreening capabilities and civilianizing 
certain sworn positions as part of a multiyear plan to bolster 
the overall security of the Capitol complex, as well as 
enhancing and completing the House garage security effort.
    Lastly, our request also addresses investments in training, 
recruiting, and outfitting new employees, replacing key 
equipment and systems that have become obsolete and restoring 
annual levels reduced in previous fiscal years to meet the 
vital department needs.
    Our commitment to the mission and our steadfast dedication 
to ensuring the safety and security of Members, staff, and the 
millions of visitors who come to the United States Capitol is 
our top priority. This would not be possible without the 
dedicated women and men of the department. I continue to be 
impressed with their overall performance and professionalism 
every day. I am very proud of the troops, and they are here and 
they really understand the mission. We will continue to work 
closely with you to ensure that we meet the needs and 
expectations of the Congress, as well as our mission, in a 
reasonable and responsible manner.
    Once again, thank you for the opportunity to appear here 
today before you and I would be pleased to answer any questions 
you may have.
    [The statement follows:]
         Prepared Statement of Hon. Chief Matthew R. Verderosa
    Chairman Lankford, Ranking Member Murphy, and Members of the 
Committee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police budget request 
for fiscal year 2018. I am joined here by some members of my Executive 
Team and Executive Management Team, including Chief of Operations, 
Assistant Chief Steven Sund; Chief Administrative Officer Richard 
Braddock; Chief Financial Officer Jay Miller; General Counsel Gretchen 
DeMar; and Inspector General Fay Ropella. Also in attendance today is 
Officer Gus Papathanasiou, the USCP FOP Labor Committee Chairman.
    First, I would like to thank the Committee for its unwavering 
support of the United States Capitol Police. On behalf of the entire 
Department, I would like to express our appreciation to the Members of 
this Committee and the entire Congress for providing the necessary 
funding to support our personnel and operations. The women and men of 
the U.S. Capitol Police work tirelessly to ensure that the Congress is 
able to securely conduct its legislative responsibilities without 
disruption, all the while exhibiting the utmost respect for the 
institution, the Constitution and protecting First Amendment rights of 
all individuals.
    I am thoroughly impressed with their performance, which is both 
seen and unseen by the community. And, I am thankful for their 
commitment to our mission and their steadfast dedication every day to 
ensuring the safety and security of Members, staff, and the millions of 
visitors who come to the United States Capitol.
    As we have seen over the past several months, our officers are well 
prepared and highly trained to deal with any circumstances that they 
may encounter. What at first may appear to be routine or even mundane, 
may in fact be a threat to the safety and wellbeing of the Capitol 
Complex or Members of Congress. We also are always aware that the 
dynamic nature of any threat can change very quickly as the 
circumstances unfold.
    This point is exemplified with the incident on June 14, 2017, in 
Alexandria, Virginia. The extensive training and quick response by 
Special Agents Crystal Griner and David Bailey saved lives. I would 
like to commend them for their heroic and professional response in 
protecting the Members of Congress and others that day during the 
practice session for the Congressional charity baseball game. We have 
often discussed the Department's need to remain agile while also 
continuing to enhance our capabilities, and I believe that in the 
environment in which we operate, it will be necessary to provide 
increased coverage for Member events going forward. In doing so, we 
appreciate the Congress' continued support of our mission and its 
recognition of the need to provide additional resources as we identify 
new and increasing threats.
    Mr. Chairman, the tremendous support of the Committee and the 
Capitol Police Board has contributed to our success in achieving our 
mission, as well as our ability to recognize and address the immediacy 
and dynamic nature of current threats. You and your staff have taken 
great time and made significant efforts to work closely with the 
Department's leadership team, and we are truly grateful for your keen 
understanding of the complexity of our mission and the challenges we 
face.
    We have developed our fiscal year 2018 budget with a focus on 
continuing to equip and prepare our workforce to be agile and 
responsive to the operations of Congress and keeping the U.S. Capitol 
safe and secure. Our overall fiscal year 2018 request is $426.6 
million, and represents an increase of approximately 8 percent over 
fiscal year 2017.
    As with all other law enforcement agencies, personnel salaries and 
overtime make up the majority of our annual budget. However, we could 
not do what we do without our dedicated law enforcement officers and 
professional staff. We have continuously worked throughout the 
Department to effectively and prudently allocate our existing resources 
to achieve the best possible balance of staffing to meet mission 
requirements. We are routinely analyzing our workforce distribution to 
align job functions, assignments, workload, risk management, and 
organizational readiness, along with the threat assessments and 
mandatory mission requirements, within a dynamic environment.
    Further, our 2018 budget request continues to address the 
Department's new responsibility of protecting and securing the O'Neill 
House Office Building, which took effect on June 8, 2017. The Committee 
has been very understanding and cognizant of what this requirement adds 
to the Department's mission and its demands on our resources. 
Therefore, I am grateful to you and your staff for working with my team 
over the past several months to address our resource needs with this 
new responsibility.
    As I noted earlier, around the world and even in the shadow of the 
Capitol Dome, we are seeing the nature of threats changing. Today, 
there are no routine traffic stops. There are no routine activities, as 
we have seen a rise in terrorist organizations attacking public venues. 
There have also been increased occurrences of homegrown, violent 
extremist ``lone wolf'' episodes, as we saw on June 14, 2017. As a 
result, we have seen an escalation in the number of mass causality 
events around the world and in the continental United States. As such, 
every event on Capitol Grounds, from demonstrations to concerts to 
Members crossing the street for votes, must be considered as presenting 
a risk.
    Based on this rise in terrorist events and the tactics displayed by 
the assailants, the U.S. Capitol Police are continuing to review our 
operational and tactical postures to ensure that the Department is 
taking every measure possible to maintain the security of the Capitol 
Complex, while allowing the legislative process to continue to function 
in an open environment. Working in close coordination with the Capitol 
Police Board, the Department has determined that additional screening 
of various means must be employed. This involves implementing 
additional screening and pre-screening at various building access 
points, deploying security measures to better secure and screen in the 
House garages, and utilizing enhanced screening portals.
    Instead of immediately requesting an increase in additional sworn 
personnel, the Department looked at its current mission load and worked 
closely with the Capitol Police Board to identify areas to modify or 
eliminate mission requirements to offset these new mission requisites. 
Additionally, the Department reviewed duties currently performed by 
officers that could be civilianized, and we began our initial efforts 
to reassign officers currently filling these roles to utilize their 
training and skills to better meet operational requirements.
    For the 7 years preceding fiscal year 2016, our number of Full Time 
Equivalents (FTEs) remained flat. However, faced with the new mission 
requirements detailed above, we continue to need additional sworn 
personnel to successfully implement all of these security enhancements 
throughout the Capitol Complex.
    Therefore, our fiscal year 2018 request includes base funding for 
1,871 sworn and 372 civilian positions, which is consistent with the 
staffing levels funded in fiscal year 2017. In addition, the request 
includes half-year funding for an additional 72 sworn officers and 48 
civilians for the purpose of enhancing garage security, adding pre-
screening capabilities, and civilianizing certain positions as part of 
a multi-year plan to bolster Capitol Complex security. To support these 
efforts, the fiscal year 2018 funding request reflects an 8 percent 
percent increase over the fiscal year 2017 enacted level for personnel 
costs. This increase is necessary to address the annual cost of living 
and benefit cost increases incurred by the Department, additional 
staffing requirements, and overtime costs to meet mission requirements.
    Currently, the Department's sworn staffing levels do not provide 
the complete and necessary resources to meet all of our mission 
requirements within the established sworn officer utility or the number 
of work-hours in a year that each officer is available to perform work. 
This utility number is used to determine overall staffing requirements. 
It balances the utility of available staff with annual salary and 
overtime funding along with known mission requirements. These known 
requirements include post coverage, holiday concerts, and projected 
unscheduled events such as demonstrations and late-night sessions. The 
utility number also estimates unfunded requirements that occur after 
the budget is enacted, such as unforeseen critical emergency 
situations, and providing adequate police coverage of Congressional 
hearings.
    Because of the need to fill the mission requirement gap through 
overtime, the Department has struggled to take our sworn personnel from 
their posts to conduct training. In order to provide mandatory 
training, we must utilize overtime to ensure that the officers may be 
offline for training, while meeting our daily mission requirements. 
There are flexibilities that other law enforcement agencies have to 
offset or defer daily requirements to allow for officer training that 
our unique mission does not afford us.
    Therefore, mission requirements in excess of available personnel 
must be addressed through the identification of efficiencies such as 
post realignment and/or reductions, technology, and cutbacks within the 
utility. Where necessary, we meet this requirement through the use of 
overtime. If the requested staffing levels for fiscal year 2018 are 
funded, the Department's overtime projection is approximately $40.7 
million. This amount will cover base mission requirements, our support 
of non-reimbursable events at the Library of Congress, and the ability 
for sworn employees to be backfilled while they attend mandatory and 
necessary training. This also includes overtime funds to provide 
coverage for the O'Neill House Office Building until the officers hired 
in fiscal year 2017 can be deployed. That specific overtime requirement 
will dissipate once the officers are deployed.
    For the Department's General Expenses budget, our request includes 
items such as protective travel; hiring, outfitting, and training new 
sworn personnel; supplies and equipment; management systems and 
technology upgrades; and other non-personnel needs. In planning for 
increases in both the number of facilities we will be protecting and 
staffing requirements, we are requesting $75.2 million for general 
expenses, which is an increase of $7.2 million over the fiscal year 
2017 enacted level. This funding will address increases in operating 
costs including investments in training, recruiting and outfitting new 
employees, replacing key equipment and systems that are becoming 
obsolete, and restoring annual levels reduced in previous fiscal years 
to meet vital Department needs.
    An important new requirement included in this request is a 
necessary $2.1 million investment in equipping a fully functioning 
Alternate Command Center. If the current Command Center at USCP 
Headquarters cannot be utilized due to power or access issues, at this 
time, the alternative is a room at another building that is sparsely 
populated with a limited amount of aging equipment. The proposed 
Alternate Command Center would include back-up power, emergency 
notifications systems, connectivity to the Senate, House and USCP 
messaging systems, secure communications, campus and airspace 
monitoring abilities, and stations for the commanders to conduct 
command and control oversight functions to ensure stakeholders are 
continuously provided situational awareness. As the level and type of 
threats have changed, we need to have all of the tools necessary to 
respond quickly and appropriately at our disposal. I believe having a 
fully functional, state-of-the-art Alternate Command Center at the 
ready is essential for the Department to be able to maintain the 
security of the Legislative Branch of government.
    As the Chief of Police, it is my fiduciary responsibility to look 
at every possibility within the Department to accomplish our mission 
before asking for additional resources. The Committee and the Congress 
have been very supportive of the Department, and I would not ask for 
additional resources unless we have identified a great need. We put in 
much time and planning while formulating our budget request each year.
    For the past 7 years, we have implemented uniform procedures to 
effectively measure and justify USCP planning, program, and resource 
requirements through a comprehensive, standardized, and repeatable 
management process that we call the ``Force Development Business 
Process.'' It provides a transparent decisionmaking process that 
includes reviews and approvals by an Investment Review Board made up of 
key agency management, and it provides a structure that is results-
driven and based on meeting operational needs. In addition, to ensure 
the accuracy of our budget request, our fiscal year 2018 budget went 
through multiple layers of review and validation, and is tied to 
supporting documentation for each budget element.
    Further, I am pleased to report that the Department received its 
sixth consecutive unmodified ``clean'' opinion on our financial 
statements from the USCP Office of Inspector General (OIG). The 
Department truly values the OIG's assistance in our efforts to further 
improve operations and performance, and the long-term resolution of 
recommendations related to internal controls, business processes and 
material weaknesses remains of the highest importance to me and our 
management team.
    I am also proud to note that the Department was awarded the Gold 
Standard from the Commission on Accreditation for Law Enforcement 
Agencies during our fifth accreditation in 2014. This is the highest 
rating that a law enforcement agency can receive, and is reserved for 
organizations that exhibit strong organizational health. In 2017, the 
Department once again is seeking the Gold Standard accreditation, and 
will be going through an onsite assessment in August. This regular 
accreditation process ensures that we are continuously reviewing our 
programs and functions, sharing and receiving lessons learned with peer 
law enforcement agencies, and most importantly, constantly implementing 
best law enforcement practices into our operations.
    In closing, Mr. Chairman, I want to assure the Committee that the 
U.S. Capitol Police is committed to always being at the ready to ensure 
that the Capitol Complex is safe and secure.
    Our fiscal year 2018 budget request was developed with great 
thought and discipline to ensure that the necessary mission 
requirements were at the forefront of our planning and prioritization. 
We will continue to work closely with you and the Committee staff to 
ensure that we meet the needs and expectations of the Congress, as well 
as our mission, in a reasonable and responsible manner.
    Again, I thank you for the opportunity to appear before you today. 
I would be pleased to answer any questions you may have at this time.

                          NEW SWORN POSITIONS

    Senator Lankford. Thank you both for your testimony.
    Chief Verderosa, let me start with you and we will have a 
brief time of questioning before we move to a closed session. 
You have made a request for 72 additional sworn officers. That 
would bring up the force up to 1,943 total officers. Can you 
talk briefly about why that request is needed and the 
additional tasks or additional locations that you need to 
provide coverage for?
    Chief Verderosa. Certainly. The request for the additional 
personnel is very specific to a tasking that will close the 
loop on some vulnerabilities that have been existing for a 
number of years on the House side. I look at policing and 
security of the campus in totality. It is not an initiative 
where we are just deploying officers to the House side. This 
effort completes our perimeter and provides a level of security 
that we believe is necessary to finish something that has been 
started over the past fiscal years.

                         CIVILIANIZED POSITIONS

    Senator Lankford. You also request an increase in civilian 
positions. Tell me the balancing that you are trying to 
accomplish there.
    Chief Verderosa. Absolutely, sir. The 48 civilian positions 
would be for the purpose of taking our command center 
communications, firearms instructors, and there are one or two 
other positions that are currently occupied by sworn personnel 
and traditionally have focused on a sworn presence. Civilians 
can perform those tasks. By requesting civilian positions, we 
can quickly place those sworn officers that are being displaced 
back into the field where we get a quicker turnaround as 
opposed to hiring new officers. New officers take time to 
select, train, and then deploy, which takes basically about a 
year to do. Civilianization returns the operational officers 
that are in these positions, back to the field. We can get more 
utility from those officers faster as opposed to hiring 48 new 
officers.
    Senator Lankford. Fair enough.
    Mr. Larkin, we have talked a lot about cybersecurity. We 
will talk a lot more about it in the closed session as well. 
The British Parliament just experienced a hacking where there 
were many email accounts that ended up being compromised.
    As you look at this, tell me where you think our level of 
preparedness is and what needs to be done generally. And then 
we can talk more specifics in a closed session.
    Mr. Larkin. Mr. Chairman, the fact of the matter is that we 
are in a constant blocking and tackling drill. This is an 
ongoing battle. There are incidents around the world and 
certainly here within the United States that are highlighted 
every day. This institution is not immune to that.
    We are constantly looking at our capabilities and our line 
of defense as far as dealing with this threat and also our 
ability to respond to an incident once we detect it, and that 
is key. Our ability to quickly identify an abnormality and then 
to contain it and effectively repair it is key to minimizing 
the damage that potentially could come from an attack that 
successfully penetrates our network.
    I will say that our efforts require the support of this 
subcommittee because much of our technology and capability 
comes with a price. As Senator Murphy alluded to, it is ``what 
is that balance point.'' How are we applying a common sense 
rule against a real world threat and are we in the right place? 
And that is a discussion that needs to be iterative between not 
only my organization but this subcommittee and that a level of 
comfort is achieved that we are protecting data, privacy, and 
other factors associated with our digital domain.
    Senator Lankford. There is a request of $1.6 million for 
process management and innovation. Tell me a little bit more 
about the responsibilities of this office.
    Mr. Larkin. We are partnering with industry in addition to 
other government agencies that are challenged by this threat. 
It is so that we can see the latest technologies and 
capabilities that are being designed, developed, and put into 
motion to deal with this threat. This particular unit is 
looking out ahead to the next ridge line, anticipating the 
technologies that potentially could help us in the future. We 
look to these technologies for planning and situational 
awareness of what we could leverage in order to ensure that we 
are defending our networks the best way we can.
    Senator Lankford. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Larkin, can you talk a little bit about developing 
capacities to protect from internal threats with respect to 
cyber protection? This is, obviously, an increasing concern. 
There is a history of some of these problems occurring within 
the Senate itself. We can talk more about this in closed 
session, but talk a little bit about your focus on internal 
threats and making sure that offices are protected from 
individuals who may have found a way inside to take information 
from servers that are shared.
    Mr. Larkin. In this institution, 99.9 percent of the 
employees are absolutely committed to its success. However, I 
think that we would be remiss if we did not posture ourselves 
to look for insider threat especially with the history of 
insider threat and the damage that it has done to other 
organizations within our government, as well as the private 
sector.
    We are incorporating capabilities that are not only policy-
based but also software-based. Policy-based in the sense of who 
has access to the sensitive information, and whether that 
access is appropriate. That can be achieved not only through 
authorities but also sophisticated levels of credentialing. The 
ability to monitor who is operating within a particular data 
area and scrutinize their activity. Are they harvesting data 
inappropriately? Are they moving data to a place where that 
data should not be making a transit? There are a number of ways 
that we can be alerted to inappropriate behavior.
    The other piece of this is the focused training and 
education effort that we have been undertaking and continue to 
push with Member offices and their staffs. We need to be alert 
to individuals who may have a temporary presence in their 
office, who are working there for the summer or for a short 
period of time and may get access to that office's system and 
subsequently to the Senate system. Are we vetting these folks 
appropriately without interfering with the privacy rights of a 
particular individual. Are we alerting, for instance, my agency 
and others, when we sense that something is not right? This is 
a part of the conversation we are having with individual 
offices. Very often the systems administrators, the 
administrative officer, the chief of staff and so forth will 
notice an issue and seek assistance and that starts us down a 
path of confirming, if that is the case, that they have a 
problem.
    Senator Murphy. Thank you for that answer and for your 
focus on the issue.

                      CRISIS INTERVENTION TRAINING

    Chief Verderosa, I wanted to ask you a question that is 
maybe a little bit out of the box. In the 21st century CURES 
Act, which is a piece of legislation we passed at the end of 
last year, we included support for something called crisis 
intervention teams, which are a community-based policing model 
designed to really understand the challenges that individuals 
with mental illness pose to law enforcement and the unique ways 
in which to respond to that threat, which often is not the 
immediate deployment of physical force.
    You are asking for a lot of new money on training, very 
appropriate. But can you talk a little bit about how you 
approach this new model that a lot of different police 
departments are deploying to handle individuals with mental 
illness who may present a threat?
    Chief Verderosa. Absolutely, sir. We actually do subscribe 
to a crisis intervention team--the concept. We attend the 
Metropolitan Police crisis intervention officer program. It is 
a 40-hour program. We have actually been involved since 2014. 
They were very proactive in this area, and we feel there is 
great value. The Metropolitan Police is partnering with the DC 
Department of Behavioral Health to develop this, and it is 
based on the Memphis model where you have community engagement 
and we look at resources that are available with a goal of 
trying to divert, whenever possible, and get the appropriate 
services that are available for people suffering from mental 
health.
    Obviously, there is great risk when there is a 
confrontation or an interface with law enforcement. The goal is 
to, one, be able to identify the needs of the individuals and 
to be able to provide them with the most appropriate services, 
and if charges are appropriate, there are also things that we 
can do that enable us to even within the criminal justice 
system ensure that the needs are met, the safety is ensured of 
individuals we face out on the street.
    This training does safeguard the officers. It provides them 
with knowledge to be able to better understand any of the types 
of threats and understand the people we are dealing with. It 
provides them with essential skills. It also helps protect the 
community. And it leverages the core social services that are 
available in the community.
    By the end of this calendar year, we should have about 75 
officers that will be trained. In the future, we would like to 
be able to institute that program in-house as opposed to 
partnering. However, we partner quite often with other law 
enforcement agencies to leverage the training ability to 
various aspects of the different kinds of training.
    Obviously, we are not counselors, but we can verbally de-
escalate situations. Where the person is in need, we can 
determine emergency hospitalization. We work very closely with 
CPEP, the Comprehensive Emergency Psychiatric Program, here in 
DC, which is for both involuntary and voluntary commitments. It 
is all in the interest of protecting not only the officers, but 
protecting the individuals. We are very well-versed.
    Senator Murphy. Well, thank you for your commitment to 
that.
    One last question. You have a unique array of challenges 
presented to you. Right now, there are a lot of people on this 
campus. Just yesterday there were, it seemed, a dozen different 
protests that were happening in different places throughout. 
People are very engaged in the democratic process, and so you 
have got a lot of people who want to be in our space.
    But as you know, many of us were alarmed when a few weeks 
ago there was a directive sent out to press inside these 
buildings that they were no longer able to film interactions 
with Members of the Senate.
    So maybe I will pose this maybe to you, Mr. Larkin, but 
either one of you can answer. Can you just walk us through what 
led to that directive being handed down and what the current 
disposition is today? My understanding is that there is no 
change in policy, that credentialed press are allowed to film 
interactions with Members of Congress as they traditionally 
have been allowed to do. But can you just walk us through how 
we got to that policy and where we are today?
    Mr. Larkin. Senator, as you know, some of the political 
issues that are front stage here on this campus and certainly 
in the eyes of the Nation have generated an increased level of 
attention from the media. However, that has resulted in a level 
of congestion at times in our hallways and stairways that 
primarily poses a safety risk. The Rules Committee sets those 
standards and they actually develop the right and left 
boundaries for media behavior and what is allowed and not 
allowed in this institution. We assist with maintaining a 
degree of order.
    As we saw the hallways being congested, as we saw Members 
being overwhelmed by media, we sought to control that primarily 
from a safety perspective, not to interfere with media access. 
I think that effort was mischaracterized. In the end, we have 
approached the various media galleries and asked for their 
assistance. We would really like them to take care of this 
problem and understand the challenges that we have here.
    We are not trying to restrict media access. However, we 
need to ensure there is some organization and some respect for 
not only the pathways that we have, whether it is in the 
Capitol Building or here in the office buildings, but also in 
regard for how they approach Members. At times, we have had 
Members that have been impeded from getting to their 
destinations because of the level of congestion and certainly 
the degree of pursuit that they have experienced.
    We are just trying to find that balance point. This was 
something I think that got out of hand temporarily but was 
quickly resolved when we were able to have a dialogue with the 
right people. I think the media can help us out with this.
    Senator Murphy. But just to confirm, so the policy has 
not----
    Mr. Larkin. It has not changed.
    Senator Murphy. It has not changed.
    Mr. Larkin. No. They went back to the existing policies.
    Senator Murphy. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Lankford. Senator Kennedy.
    Senator Kennedy. Gentlemen, I think I have maybe one or two 
questions.
    I wanted to thank you both for your service.
    Mr. Larkin, I wanted to ask you about the media directive. 
What did the original directive say? You indicated there was 
some confusion about it.
    Mr. Larkin. I believe that the initial incident was 
regarding camera locations, that there was a camera team that 
was in an inappropriate location. I think that over the years 
and with the change of personnel not only on the media side but 
other parts of this institution, common practice began to 
deviate from what the rule was. And so when this particular 
incident involving a camera crew in the wrong place was 
observed, it set some other things in motion.
    Senator Kennedy. What I am asking you is did the original 
directive prohibit cameras?
    Mr. Larkin. Cameras were prohibited in certain areas, and 
this particular camera team was not supposed to be in the area 
that they were in.
    Senator Kennedy. What areas were camera teams prohibited 
from? Do you recall?
    Mr. Larkin. There are pages and pages of rule guidance that 
diagram this out and, at this point, I would just be guessing.
    Senator Kennedy. Well, if the issue arises again--I 
understand you have to go through the Rules Committee--I would 
certainly like to know. And as you expressed, I think we have 
to be very careful here because I think the message that the 
public received was that the media with cameras could no longer 
access the peoples' representatives. And I do not think that is 
what any of us want. And I think there was a lot of confusion 
about it. But I would certainly like to know within the rules 
if another directive like that is being considered--I am not on 
the Rules Committee, but I would sure like to have some advance 
warning and offer some input. I just did not think it was very 
cool is what I am trying to suggest to you. I know it is not 
your call. I am well aware of that, Frank. But we just need to 
be real careful here.
    Mr. Larkin. I think it goes to communications and getting 
everybody in the same place saying the same thing and 
understanding what the rules are. I think we can come to that 
balance point. There is no intent to impede them from access to 
Members or anything else. We will work hard on making sure this 
does not happen again.
    Senator Kennedy. I know you will. I want to thank you and 
the Chief for your good work and especially your colleagues 
too.
    Mr. Larkin. Thank you, Senator.
    Senator Lankford. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman and Ranking 
Member Murphy.
    I thank both of you, first of all, for your service. I 
thank you for what you do to protect our Capitol and make it as 
safe as it can be consistent with the need to have a place that 
is open for the capital of democracy.
    And I also want to join my colleagues in extending our 
gratitude to Special Agents Griner and Bailey for saving lives 
and to your entire teams.
    And I had a question on cybersecurity as well, but I am 
going to defer that. I understand we may be able to take that 
up in a more confidential setting.

                    USCP COORDINATION WITH AGENCIES

    But I have a question for you, Chief Verderosa. Last year, 
the GAO published a report on the Department of Homeland 
Security's Office of National Capital Region Coordination, and 
they recommended that they strengthen their coordination 
capabilities through the restructuring of the joint Federal 
committee and specified the roles and responsibilities of all 
the participating agencies, how they can best work together. 
The Department of Homeland Security accepted the GAO 
recommendations.
    And my question to you and to you as well, Mr. Larkin, if 
relevant, is given the fact that the Capitol Police and the 
Sergeant at Arms are part of that security system, do you feel 
that those provisions, those GAO recommendations, are being 
implemented? Do you feel like you are being properly included 
as part of the team? How are the lines of communication? What 
is your assessment of where we are today?
    Chief Verderosa. We have very robust communication with all 
of our partners in the National Capital Region, specifically 
some members of Department of Homeland Security (DHS), DHS 
central. We are on their communication links. We work very 
closely particularly with large-scale events, national security 
events, and National Special Security Events. Frankly--and I 
say this to my partners all the time--in the 32-plus years that 
I have been in law enforcement, I have never seen better 
coordination between all entities particularly our really 
closest partners, Secret Service, FBI, the service being part 
of DHS. We get tremendous support. Information sharing is as 
good as I have ever seen. Intelligence sharing, both classified 
and unclassified information. I applaud the efforts of our 
partners in reaching out to us with information. We have a very 
active threat assessment investigations division, and I would 
say that we are equal partners with all of them. I am very 
pleased with our ability to work closely, communicate with, and 
share information with our DHS partners.
    And I will certainly defer to Mr. Larkin.
    Mr. Larkin. And I agree with that. I will highlight two 
recent incidents.
    One is the shooting a couple weeks ago where Chief 
Verderosa and I got on the scene very quickly, interacted with 
the leadership from the other Departments involved, the FBI, 
ATF, the other responding resources. We all knew each other. We 
already had that connective tissue in place. So it was about 
focusing on what was important, and we were quickly able to 
prioritize how we move forward in handling that incident 
because we have no time in this National Capital Region with 
everything that we are challenged with to deal with egos, to 
deal with people wanting to hold onto information and so forth. 
We have a very good relationship based on trust and confidence.
    The other is DHS and the way we partner with them on cyber. 
We are talking about the physical side of it, but we cannot 
ignore talking about the cyber side. And we have situations 
here that develop where we have instantaneous communications 
with DHS, and we have to because they are a platform that has 
tentacles out to other agencies, probably one of the best 
alerting capabilities that we have that once we detect 
something is amiss to be able to let others instantly know 
about that. It goes to that mitigation of the damage effect 
because if they are hitting us, they are probably hitting other 
people, as we have seen with this incident this week around the 
world.
    Senator Van Hollen. Thank you.
    Senator Lankford. This concludes the open session of the 
Legislative Branch Appropriations Subcommittee hearing 
regarding fiscal year 2018 funding for the Sergeant at Arms and 
U.S. Capitol Police.
    The hearing record will remain open for 7 days allowing 
Members to submit statements and questions for the record, 
which should be sent to the subcommittee by the close of 
business on Thursday, July 6, 2017.

                         CONCLUSION OF HEARINGS

    The subcommittee will now adjourn and immediately reconvene 
in closed session to review security needs within the Sergeant 
at Arms and Capitol Police budgets. This portion of the hearing 
will be restricted to Members and staff with TS level clearance 
only.
    I appreciate all of you being here and being part of this 
conversation. We look forward to reconvening in the other 
location for the closed session. Thank you.
    This hearing is adjourned.
    [Whereupon, at 11:00 a.m., Thursday, June 29, the 
subcommittee was adjourned and immediately reconvened in closed 
session. After the closed session, the hearings were concluded 
and will reconvene subject to the call of the Chair.]
</pre></body></html>
